           U.S. Department of
                                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                      Date:    May 23, 2011
           Single Audit on the Port Authority of
           New York and New Jersey
           Report No. QC-2011-090
                                                                                    Reply To    JA-20
  From:    Earl C. Hedges                                                            Attn Of:
           Program Director for Single Audit
    To:    See Distribution List

           The U.S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Port Authority of New York and New Jersey (Port Authority).
           This report presents the results of our Quality Control Review (QCR) of a single
           audit performed by Deloitte & Touche, LLP on the Port Authority for the fiscal
           year ending December 31, 2010. During this period, the Port Authority expended
           approximately $311 million from DOT grant programs, as shown on the attached
           Schedule of Expenditures of Federal Awards.

           The Office of Management and Budget's (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Deloitte & Touche rendered an unqualified (clean) opinion on the Port Authority's
           financial statements, and did not question any costs concerning DOT programs.
           Deloitte & Touche also rendered an unqualified opinion on each of DOT's major
           programs (Federal Transit Cluster, Airport Improvement Program, and the
           Highway Planning and Construction Program). However, Deloitte & Touche
           made recommendations to correct internal control and compliance deficiencies
           that directly affect the Highway Planning and Construction Program. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether                     the work complied with
           generally accepted government auditing standards,                        as prescribed by the
           Comptroller General of the United States, the Single                     Audit Act of 1984, as
           amended (the Act), and OMB Circular A-133, and (2)                       the extent to which we
           could rely on the auditor’s work.
           1
               We advised FHWA about these deficiencies in a separate memorandum. The single audit report is
               available upon request. Requests should be sent to singleauditrequest@oig.dot.gov.
                                                                                 2

RESULTS

Based on our QCR, we determined that Deloitte & Touche's work was Acceptable,
and therefore met the requirements of generally accepted government auditing
standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Deloitte & Touche's opinion on the Port Authority's financial statements or reports
on the Port Authority's internal controls and compliance were inappropriate or
unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

Attachment

Distribution List

Regional Administrator, FTA, Region II
Regional Administrator, FAA, Eastern Region
Division Administrator, FHWA, New York Division Office
Audit Liaison, FTA, TPM-2
Audit Liaison, FAA, Eastern Region, AEA-620
Manager, FAA, New York Airports District Office
Audit Liaison, FHWA, HAIM-13
Audit Liaison, OST, M-1
Comptroller, Port Authority of New York and New Jersey
